rj

No.
In the
U.S. Supreme Court of The ^United States

John E., John J. And
Judith A. Reardon,
Petitioners, PRO SE
V

Judge Noel Hillman, Jay Sanchez,
Desiree Ramsey and Ryan Merrigan

FILED
OCT 1 0 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Respondents
On Petition For Writ of Certiorari
To The Third Circuit
i)

John E. Reardon, Pro Se
1 Joans Lane
Berlin, N.J. 08009-1516
Home/Fax: 856-753-5116
Cell: 856-417-4131

RECEIVED
OCT 29 2019

filedOCT 15 2019

/

f?

fj ,

1

Questions for Review
1. Contrary to all 12 circuits, Is the court’s failure to set aside a Void
judgment that is due to the failure to give prior notice and right to be heard a
fatal defect that can not be given legal effect and is the injured party entitled to
relief due to the orders of the lower courts being void due to a standing Order of
Judge Gerry that allows Due Process to notice and being heard to be denied to all
litigants? A19,20,42;
2. Do mandatory, administrative, ministerial, or non-discretionary acts
accord Absolute immunity under Rule 55(a) and (b)(l) for the clerk and 55(a)
and (b)(2) for the judge and trump Due Process of law to notice and right to
be heard before an order is entered?
3. Is the issue of the nature of the function a factual dispute that requires
a plenary hearing?
4. Given that all 12 circuits have held that there is no discretion to not set
aside a void order for violations of Due Process to notice or to be heard and given
that this court held that judges have no immunity for lack of discretion that are
such for void orders, are the 7 lower court judges liable for promoting and
enforcing said void orders and intentionally denying our rights?

<:A

11

Table of Contents
Item

Page

1. Questions for review

1

2. Table of Contents

u

3. Table of Authorities

in

4. Jurisdiction of the Court

1

5. Statement of the case

1

6. Legal Arguments

16

7. Relief Sought

27

8. Conclusions

30

9. Appendix

A1

,A

Ill

Table of Authorities
Citation

Page

1. Alston v. KEAN UNIVERSITY, 2015

15

2. Antoine v. Atlas Turner, Inc., 66 F.3d 105, 108
(6th Cir.1995)

16

3. Antoine v Byers & Anderson Inc., 508 U.S. 429,
1993

14,24,29,31

4 Balisrtreri v Pacific Piolice Dept., 901 F.2d 696,
9th Cir. 1990

3,23

5. BAC LOCAL 2, ALBANY v. Moulton Masonry &
Const., 779 F. 3d 182 Court of Appeals, 2nd Cir. 2015

21,22

6. Bell Helicopter Textron v. Islamic Republic,
734 F. 3d 1175, D.C. Cir. 2013

17

7. Berl v. Crutcher, 60 F. 2d 440, 445 5th Cir. 1932

17

8. Black v Bayer, 672 F.2d 309, 3rd Cir. 1982

13

9. Bogan v. Scott-Harris, 523 US 44, 1998

24,25

10. Brown v. RJ Reynolds Tobacco Co., 576 F. Supp. 2d
1328, Section III, Dist. Court, MD Florida 2008
17
11. Buckley v Fitzsimmons, 509 U.S. 259, 1993

4

12. Caperton v Massey Coal Co., 129 S.Ct. 2252, 2009

5,22

13. Carter v. Fenner, 136 F.3d 1000, 1005 ,5th Cir.1998 16
14. Chicot County Drainage Dist. v. Baxter State Bank,
17
103 F. 2d 847, 8th Cir. 1939
15. City of New York v. Mickalis Pawn Shop, LLC, 645 F.
21
3d 114, 2nd Cir., 2011
16. Commerce Casualty insurance Co. v Consolidated
Stone CO., 278 U.S. 177, 1929

1

a

F

\

IV

Citation .

Page

17. Cottrell v Norman, D.C., DNJ 2015

5,20

18. Elliot v Piersol, 1 Pet. 328, 340, 26 U.S. 328, 1828

18

19. Export Group v. Reef Indus., Inc., 54 F.3d 1466,
(9th Cir.1995)

16

20. Foman v Davis, 371 U.S. 178, 182, 1962

3,15

21. Fuller v. MORTGAGE ELECTRONIC REGISTRATION
SYSTEMS, 888 F. Supp. 2d 1257 , Dist. Court:, M.D.
21
Florida. Jacksonville Division, 2012
22. Hobbs v. U.S. Office of Personnel Management,
485 F.Supp. 456 (M.D. Fla. 1980).

18

23. Hoxworth v Blinder Robinson and CO., 980 F.2d 912,
3rd Cir. 1992
20
24. Hughes v Long, 242 F.3d 121, 3rd Cir. 2001

4

25. ILGWU Nat. Retirement Fund v. Meredith Grey, Inc.
986 F. Supp. 816, Dist. Court, SD New York 1997
16
26. In re Central R. Co. of New Jersey, 136 F. 2d 633,
3rd Cir. 1943

17

27. In re Charter Communications, Inc., 393 F. 3d 771
8th Cir. 2005

14,24

28. In re Noell, 93 F.2d 5, 8th Cir. 1937

17

29. In re Paoli RR Yard PCB Litigation, 221 F. 3d 449,
3rd Cir. 2000

20,21

30. Insurance Corp. Of Ireland v Compagnie Des Bauxite ,
1,5
456 U.S. 694
31. International Life Ins. Co. v. Sherman, 262 US 346,
17
1923

a

fj

V

Citation

Page

32. Jackson v Birmingham Brd. Of Ed. 544 U.S. 167,
2005

2,3

33. Johnson v. Arden, 614 F. 3d 785, 8th Cir. 2010

16

34. Kaohwa Shipping Co., SA, v. China Steel Corp.,
816 F. Supp. 910, 913, Dist.Court, SD New York, 1993

4,5,23,26,27

35. Laskaris v. Thornburgh, 661 F. 2d 23, 3rd Cir. 1981 13
36 Lawrence v State Tax Commission, 276 U.S. 276,
1929

31

37. Lubben v. Selective Service System Local Bd. No. 27,
453 F.2d 645, 14 A.L.R. Fed. 298 (C.A. 1 Mass. 1972)
18
38. McDonald v.Mabee (1917) 243 US 90, 37 S.Ct 343,

17

39. Meyer v. Curran, 397 F. Supp. 512, Dist. Court, ED
Pennsylvania 1975

17

40. Morrissey v. Brewer, 443 F. 2d 942, 8th Cir. 1971

17

41. Myers v Moore, D.C., ED Pa., 2014

L3

42. Oldfield v. Pueblo De Bahia Lora, SA, 558 F. 3d 1210 ,
11th Cir. 2009
16
43. Page v. Schweiker, 786 F. 2d 150,3rd Cir,. 1986

25

44. Penn West Associates, Inc. v. Cohen, 371 F. 3d 118,
3rd Cir. 2004

13

45. Pierson v Ray, 386 U.S. 547, 1967

27

46. Postal Telegraph Cable Co. v. Newport, 247 US 464,
17
1918
47. Raymark Industries, Inc. v. Lai, 973 F. 2d 1125,
3rd Cir. 1992

4,14,21

a

VI

Citation

Page

48. Reshard v. Britt, 839 F. 2d 1499, 11th Cir., 1988

17

49. Richards v. Jefferson County, 517 US 793, 1996

17

50. Roberts v. Anderson, 66 F. 2d 874, 10th Cir. 1933

17

51. Sabariego v Maverick, 124 US 261, 293, 8 S.Ct. 461,
14,18
1886
52. Sanderford v Prudential Ins. Co. Of America,
902 F.2d 897, 11th Cir. 1990

1

53. Schiavone v. Fortune, 477 US 21, 27, 1986

15

54. Sea-Land Serv., Inc. v. Ceramica Europa II, Inc.,
160 F.3d 849, (1st Cir.1998)

16

55. Standard Oil Co. of Ind. v. Missouri, 224 US 270,
1912

17

56. States v. Martin, 378 F.3d 353, 4th Cir. 2004

16

57. Swindell-Dressler Corporation v. Dumbauld, 308 F.
2d 267, 3rd Cir., 1962

17

58. Tanner v. Hardy, 764 F. 2d 1024, 1028 ,4th Cir. 1985 3,23
59. United States v. Bifield, 702 F. 2d 342, 2nd Cir. 1983 17
60. United States v. Indoor Cultivation Equip, from High
Tech Indoor Garden Supply, 55 F.3d 1311, 7th Cir.1995 16
61. United States v. Sacher, 182 F. 2d 416, 2nd Cir.,1950
62. UNITED FOOD & COM’L WKRS. U., ETC. v.
Alpha Beta Co., 736 F. 2d 1371, 9th Cir.,1984

17

1,3

63. United Student Aid Fund v Espinosa, 130 S.Ct. 1367,
14,18,19
2010
64. U.S. v Beggerly ,524 U.S. 38, 1998

14,23

f

Vll

Citation

Page

65. Wilmer v. Board of County Comm'rs. of Leavenworth
County, 69 F.3d 406, (lOthCir. 1995)
16
66. Windsor v. McVeigh (1876) 93 US 274, 23 L.Ed 914

17

67. World-Wide Volkwagen Corp. v. Woodson,
444 U.S. 286(1980)

18

68. Blackstone’s Commentaries, Book 1, Chapter 9,
Page 342

5,26,27

69. 28 U.S.C. 2101

1

70. Rule 1

3

71. Rule 4

1

72. F.R.Civ.P. 12

1,2,15

73. Rule 55

i,1,5,6,9-11,16,24,27,28,31

74. Rule 60

1,13,15,19,23,29

75. R.P.C. 3.3

15

fj

1
Jurisdiction of this court is invoked under 28 U.S.C. 2101.
Statement of the Case
Mr. Reardon filed civil suits P15_cv-00244 and F15 -cv-05520. Mr. Reardon
did serve the defendants in a manner not described in Rule 4 but the defendants
were in fact served with the summons and complaint, and the clerk so noted on
the docket that service was executed. A30-36.
The defendants, at all times, were kept informed of Mr. Reardon’s actions in
the court relative to these lawsuits. The defendants in said cases all had the
option of challenging insufficient service of process or insufficient process under
F.R.Civ.P. 12(b)(3) or (4) by way of Rule 12(a)(l)(A)(i) timely or under Rule 55 or
Rule 60(b) but chose to remain silent and have remained silent from January and
June 2015 to the present. See Insurance Corp. Of Ireland v Compagnie Des
Bauxite , 456 U.S. 694, 704,705, Personal defenses waived if not timely sought;
Commerce Casualty Insurance Co. v Consolidated Stone CO., 278 U.S. 177, 180,
1929, challenges under F.R.Civ.P. 12(b) required to be brought within 21 days or
they are waived; Myers v Moore, D.C., ED Pa., 2014, defense bears the burden of
proving Rule 12(b)(3) or (4) defenses; Sanderford v Prudential Ins. Co. Of America,
902 F.2d 897, 900, 11th Cir. 1990 and UNITED FOOD & COM'L WKRS. U„ ETC.
v. Alpha Beta Co., 736 F. 2d 1371, 9th Cir.,1984, service is valid and acceptable as
long as party actually receives the summons and complaint, for which the
defendants in cases 00244 and 05520 did so receive and the clerks and Judge
Hillman were so informed of said service and for which the Clerks entered on the

2
docket that service had been executed. A30-36.
Mr. Reardon made numerous attempts to get default or default judgment or
a trial date/hearing as to damages in said cases. Judge Hillman failed to require
the clerk to so enter default and he so refused to do so as well and he also failed to
carry out his ministerial duty to move his docket in a timely manner by failing to
hold a hearing on said damages or to inform Mr. Reardon, who is pro se, that his
service was defective and either dismiss the lawsuit so it could be re-filed and
service made properly or to grant Mr. Reardon an extension of time to effectively
serve all defendants and as a result of Judge Hillman’s failures to carry out his
administrative duties, in 2018 Judge Simandle did in fact dismiss these 2 cases
with no right to be heard or to re-serve the parties as the statute of limitations
has now run out and though Mr. Reardon sought leave to re-serve the defendants
to Judge Simandle and he did deny said request.
The well settled law is that the defendant bears the burden of proving
service of process was defective and that said law also requires the defendant to so
do within the 21 days allotted by Rule 12(a)(l)(A)(i) and the defendants in these
two cases of Mr. Reardon have never pled to said cases timely and have waived
any objection to Rule 12(b)(2)-(5) and Judges Hillman, Simandle, Martinotti and
Apellate Judges Restrepo, Bibas and Nygaard have placed the burden of proving
proper service on the Petitioners when it is not our duty to so prove and for which
the courts have acted as defense counsel for the respondents unconstitutionally,
Improperly, and illegally and discriminated against the Reardons. See Jackson v

V

3
Birmingham Brd. Of Ed., 544U.S. 167, 174, 2005, discrimination is unequal
treatment of 2 people or things under similar circumstances; Myers v Moore,,
D.C., ED Pa., 2014 and UNITED FOOD & COM’L WKRS. U., ETC. v. Alpha Beta
Co., 736 F. 2d 1371, 9th Cir.,1984, so long as party actually receives service of the
summons and complaint said service should be valid; Tanner v.Hardy, 764 F. 2d
1024, 1028 [Ft. Nt. 4], 4th Cir. 1985, failure to carry out the administrative act of
scheduling a hearing removes Absolute immunity from the Judge; and Balistreri
v. Pacifica Police Dept., 901 F. 2d 696, 699, 9th Cir., 1990, dismissal of a pro se
lawsuit for improper service is not grounds to dismiss for such.
When it became apparent Judge Hillman was not going to move these 2
cases I did seek a Writ of Mandamus to the Third Circuit to compel the court to
act in a timely and proper fashion and was so denied this relief.
The Petitioner did then seek a Writ of Mandamus to this court for the same
reasons and was denied here as well.
This Court held in Foman v Davis, 371 U.S. 378, 1972 that cases should be
handled in such a way as to decide cases in a speedy, inexpensive and just
manner to comply with F.R.Civ.P. 1 and these 2 collateral cases were not handled
in accordance with this court’s position on Rule 1 mandates.
When Mr. Reardon had no place to turn to assert his rights and to be heard
he filed this lawsuit, 3U8-cv01296, against Judge Hillman and the clerks for
legal and equity relief. The defendants had till April 9, 2018 to file an answer to
the lawsuit. On April 7, 2018 Mr. Reardon sent in a request for default if the

ft

ID

4
defendants did not so answer on April 9, 2018. A37-47.
It appears that the orders of April 6, 2018 was back dated as I did not
receive the order till 6 days after it was allegedly filed and for which it only takes
2 days to receive timely mail from the Court. It further appears that the January
7, 2019 order was also back dated as it took 3 days to arrive at my house and it
should have only taken 2 days at most.
On April 6, 2018 Judge Martinotti entered his dismissal order that claimed
that the defendants had absolute immunity and could not be sued for their
ministerial or administrative and mandatory or non-discretionary duties to enter
default and to timely handle its docket. Judge Martinotti did cite the controlling
law on such immunity questions by citing Hughes v Long, 242 F.3d 121, 125, 3rd
Cir. 2001 and Buckley v Fitzsimmons, 509 U.S. 259, 269, 1993 that clearly holds
that “it is the duty of the official asserting absolute immunity to prove they are
entitled to such for the function in question”, for which the clear law and facts are
that ministerial acts are not judicial which affords or accords immunity and Judge
Martinotti did not only deny the Reardons’ of the right to notice and to be heard
but failed to require the defendants to assert these personal defenses that they
must assert pro se or by way of counsel and thus failed to prove they are entitled
to such defense and Judge Martinotti did in fact show a personal bias for which he
should have recused himself for. Raymark Industries, Inc. v Lai, 973 F. 2d 1125,
1132, 3rd Cir. 1992; Kaohwa Shipping Co., SA, v. China Steel Corp., 816 F. Supp.

fA

ID

5
910, 913, Dist. Court, SD New York, 1993 , a meritorious defense does not prevent
the setting aside of Void orders; Insurance Corp. of Ireland Supra.; Caperton v
Massey Coal Co., 129 S.Ct. 2252, 2254, 2259, 2263, 2009. A17-29 and 37-51.
This court has made it clear that personal defenses can be waived by the
party if not timely raised. Thus the failure to timely claim insufficient service of
process or insufficient process or lack of personal jurisdiction are waived if not
done so timely. Since default is a ministerial act performed by either the clerk or
the Judge, said act is no different than the establishment of a Jury list, there is no
absolute immunity for such failure.
Cottrell v Norman, 2015 by Judge Hillman. See Also Blackstone’s
Commentaries, Book 1, Chapter 9, Page 342, A judge may be sued for failure to
follow his/her prior rulings if warned and done out of wilful or malicious reasons
and double costs is allowed against said Judge and Mr. Reardon informed Judges
Hillman and Martinotti of their failure to abide by their past rulings and they
wilfully failed to correct their errors. As did the 6 appellate Judges.
Judge Martinotti’s legal position is unconstitutional since he claims that
the clerk exercises discretion in entering Default when the clear law says he does
not so exercise such and he relies on Judge Simandle’s case of Bey v Bruey that
the District Court judge claims that Rule 55 means something other than what
the Statute, rules and case law say, and that is that the rule states the clerk
performs a ministerial, mandatory, non-judicial and non-discretionary function in
entering of default, that the clerk must enter default on demand and the clerk

rA

6
therefore lacks any discretion to not so enter default on demand. The clerk’s task
provides him no discretion and judgment, and now, somehow, the Clerk performs
a judicial function, since to hold it would be a ministerial function would strip
Judge Hillman’s Immunity if it is such a function, when in reality the Judge also
performs the same functions Under Rule 55(a) or (b), in order to protect the liable
conduct of the defendants’ instead of the rights of the plaintiffs/ petitioners. (A)
Does a Judge, therefore, perform a judicial function under Rule 55(a) or (b)(2)
meaning the clerk also carries out a judicial function? or (B) does the clerk carry
out a ministerial function and thus so does the judge? A17-29. The petitioners
request this court to settle this dispute in the law on immunity and relative to
judicial or ministerial, non-discretionary and mandatory functions that has never
arisen for Rule 55 before. But for which all the other circuit court’s and Judge
Hillman have held the clerk must enter default upon demand which makes the
action ministerial and mandatory affording or according no immunity.
What the lower courts have done is to say that because Default Judgment
may be exercised by the judge it is a judicial function and thus the judge is
absolutely immune. They have found that any such function performed by a Judge
is Judicial and thus it is a Judicial Function and the Respondents are therefore
immune, when they have failed to look directly at the function itself and see that
the Clerk can perform the same functions as the court under Rule 55(a) and (b)(l)
and that they exercise some form of function equivalent to a judicial function and
is immune and thus the Judge is also immune when they do not.

7
The clear law by this court is that Mandatory acts are Ministerial and that
Ministerial or Mandatory acts are not discretionary and any official who does not
comply with the mandate of the mandatory act is liable to the injured party.
Therefore when examining the function, as is required for immunity purposes, the
functions of entering Default and Default Judgment, or of scheduling hearings in
a timely manner or informing a pro se plaintiff that his service is defective and
giving said plaintiff the right, timely, to re-file and reserve the summons and
complaint or additional time to so serve the defendants or notify the pro se
plaintiff of his right to amend are all functions that are Administrative or
Ministerial in nature and not judicial functions and Mr. Reardon sought this relief
in the original lawsuit or by way of leave to amend that was denied by Judge
Martinotti on January 7, 2019 and not granted in the first instance before April 6,
2018.
The lower courts know that Immunity must be based on the nature of the
function, and not the nature of the official. A17-26 but they have in fact found
that because a judge performs some act under the Rules that such act is by nature
Judicial for which Absolute immunity attaches. The fact of the matter is that the
clerks Must enter default judgment and default on demand and that such acts are
Ministerial, Non-Discretionary, Mandatory and Non-Judicial in nature, and this
court has held that where a function compels an official to carry out some act and
he fails or refuses to do so that the said individual may be held liable to the
injured party. These are functions that do not provide absolute immunity to the

8
Clerk or Judge.
Given this state of the law and given the state of the function it is clear that
the Lower Court Judges focused on the nature of the official by claiming that
because the Judge performs the act of default and default judgment that it ipso
facto becomes a judicial act/function but ignores the fact that the Legislature, and
the case law hold that functions that are also performed by Non-Judicial Agents
are in fact Non-Discretionary, Mandatory, Non-Judicial, Ministerial functions
since they are performed by someone other than a Judge. They have turned the
nature of the Function analysis into a Nature of the official so as to afford and
accord the respondents protection from lawsuit for their abusive and willful
conduct and actions. They have failed to require the defendants to prove they are
entitled to absolute immunity and without a hearing or prior notice, that has not
happened here, and this court needs to decide if a clerical function, which is non­
discretionary, is a judicial function when the judge performs the same act or
whether the Judge performs a ministerial function since it is also performed by
the clerk. This has never been addressed by this court and needs resolution by
this court for all complainants, especially those pro se. Al-29.
Judge Simandle, believes that the clerk’s function to enter default upon
demand is fact sensitive that accords Qusai-Judicial Immunity on the grounds
that the clerk must decide if the complaint and summons have been properly
effected by the plaintiff and he thus performs a judicial, not a ministerial,
function that he is entitled to absolute immunity for, while the courts have said

V

9
quite the opposite. If the statute does not provide specifically that the clerk has a
function other than to enter said default, the Legislature would have so found
such and put it in the Statute and Rule 55 but that has not happened and the
courts have so found that not to be the case. This dispute as to the courts directly
answering Rule 55(a) or (b)(l) have not so found the clerk to have such immunity.
Even the 3rd Cir. said that the taxation of costs, that requires factual findings, is
still a ministerial act by the clerk and as such would not be entitled to absolute
immunity. If the taxing of costs is ministerial the act of deciding damages is also
non-judicial, non*discretionary, ministerial and mandatory and since it is such for
the clerk, it must also be such for the judge. However Judge Martinotti and the 3rd
Cir. focused on the nature of the official and found that because a judge performs
a function under Rule 55(a) or (b)(2) it automatically is a judicial function and
they have focused on the nature of the official and not the nature of the function
that they know they are required to do. A17-26. This courts decisions are clear
that ministerial acts accord no immunity and the mere fact the judge performs an
act that the clerk also performs is not proof that since the Judge so performs such
an act it elevates the act to being judicial. This dispute in the various circuits on
whether a clerk is allowed absolute immunity for a function that the circuits are
in disagreement over and are in disagreement with this circuit’s findings and for
which there is a dispute in the law as cited by the lower Courts, this court should
clarify and resolve these Conflicts so all plaintiffs can know when a clerk and
Judge are liable for ministerial, mandatory, non -discretionary and non- judicial

10
acts, and precisely under what facts and circumstances the courts and the parties
can know when such occurs, especially for pro se plaintiffs.
The clerk failed to enter default and default judgment under Rule 55(a) or
(b)(l) which are ministerial acts. The mere fact that the judge performs the same
acts under Rule 55(a) or (b)(2) does not make them judicial acts but they too must
also be mandatory ,non-judicial non-discretionary and ministerial functions which
is what the court must focus on and are not judicial functions.
The findings of Judge Simandle regarding clerical immunity is premised on
the claim that a Clerk performs a vital discretionary role for the Court/Judge for
which if this were true they might so be immune, but the only alleged discretion
of the Clerk is the determination as to whether it appears the party has been
served or not. The clerk does not aid the court in assessing the legal and factual
issues the court is required to do such as a Prosecutor, Doctor or Psychiatrist, who
is involved with the factual findings of guilt or innocense it is clear that such
would amount to being an arm of the court and entitled to Absolute immunity, but
the clerk serves no such function and since the Clerk is the one identified in Rule
55(a) and (b)(l) it is clear that the clerk exercises no discretion that a party, as
stated, would be required to do. Deciding if a person was served has nothing to do
with the finding of facts and law and does not serve a Judicial function.
Judge Martinotti is also in error since the case of Bey v Bruey is a 28 U.S.C.
1915 case that gives the judge the right to sua sponte review a prisoner’s case in
order to ascertain if the lawsuit is just and proper and this was and is not an In

11
Forma Pauperis lawsuit and for him to rely on the rights under Section 1915 to
a case that is not such giving him the right to prejudge a case is way out in left
field and he neither has nor had any such authority to treat this case as though it
were a Section 1915 case. Further, in Bey v Bruey the court notified the plaintiff
of its intent to possibly dismiss his case and the Reardons’ were denied of this
notice and right to be heard. Judge Martinotti also dismissed without giving me a
right to amend.
It should further be stated that Judge Martinotti relies on an order By
Judge Gerry that he claims gives him the right to not only pre-judge a case but to
do so without complying with the mandates of Due Process. Such a position
throws away the absolute rights of the people that are absolutely guarantied to
the people before their rights can be denied and as to void orders. Such an
interpretation of Judge Gerry’s standing order flies in the face of the law on Due
Process and Void orders.
The only discretion the clerk has to do is with respect to Rule 55(b)(1) is to
evaluate the basis for the damages, which he would not have such immunity for,
but there is no precedent that says a clerk exercises any discretion with respect to
the mere entering on the record of a party’s default or default judgment. Such acts
are not discretionary and require no discretion that holds to the claim of said act
being discretionary and are thus equal to a judicial act. A17-29.
After Judge Martinotti’s April 6, 2018 order dismissing this case Mr.
Reardon filed a notice of Appeal to the 3rd Cir. challenging Judge Martinotti’s

r>

12
order on the grounds that it was void due to his denial of the Reardons’ rights to
notice and to be heard as per Due Process, which in effect makes the order void
and must be set aside. Al-25.
The 3rd Cir., also, ignored the well settled law on void orders and upheld
Judge Martinotti’s order by, apparently, claiming that Immunity Trumps Due
Process contrary to all 12 Circuit Courts of Appeals. A27-29 and pages 16-18
below.
The 3rd Cir. Court of appeals did enter it’s order on August 28, 2018
upholding Judge Martinotti’s dismissal order on the claim that Judge Hillman
acted judicially to deny default judgment but failed to address the issue of equity
relief sought against these defendants/respondents, they failed to address the
issue of the entry of default and a hearing date as to damages for said cases that
are considered as administrative acts, it failed to address the void orders law, and
that the April 6, 2018 order is and was void and that the entry of default
judgment is in fact a judicial act when it is in fact one to also be preformed by a
non judicial official no differently than the creation of a jury list which denies
absolute immunity from and did so fail and refuse to set aside the void order of
Judge Martinotti when they know full well that there is no discretion to not set
aside a void order and that Judge Martinotti was just in his assertion of these
personal defenses and was permitted to plead these defenses on behalf of the
respondents and thus said that a Judge can act as counsel for any party he wishes
to so do and that there is no requirement or duty to comply with Due Process of

13
Law, and that the Appellate court can now do what the 3rd Cir. already ruled that
it cannot so do, Laskaris v. Thornburgh, 661 F. 2d 23, 26, 3rd Cir. 1981 which
holds that equity relief is available if the legal relief is not and Penn West
Associates, Inc. v Cohen, 371 F. 3d 118, 125, 3rd Cir. 2004, which is to not hear a
matter of first instance before all the facts and law have been aired in the District
Court, which did not occur here, the clerks are only entitled to qualified immunity
only after discovery is completed in conformance with Black v Bayer, 672 F.2d
309, 316, 3rd Cir. 1982. A17-29.
If we accept the premise of Judge Simandle the court would have us believe
that because a clerk has to ascertain whether service was proper under the rules
that the clerk thus performs some significant Judicial act according him
immunity. This would then require the courts to say that a person making up a
Jury list, performs a Judicial Function because the said person must ascertain if
the prospective juror is of age, that he/she has no infirmities to sit as a juror and
that said juror lives in the county to which he is summoned. The Court would
have us believe these are fact sensitive matters of a judicial nature granting
immunity for. The decisions held by the Courts below amounts to no more than
the clerk investigating the basis for the default and Judge Simandle’s order in Bey
v Bruey even holds that prosecutor’s are not immune for their investigative
functions. Also, the Clerk noted in the docket that service had been executed. A3036.
After the 3rd Cir. Denied my appeal I did file a Rule 60(b)(3), (4) and (6)

14
motion to Judge Martinotti to set aside his void order for excusable neglect and
error by the court as to facts and law, U.S. v Beggerly ,524 U.S. 38, 42,43, 1998
and to set aside his order of April 6, 2018 on the grounds that it is void for failure
to grant notice and right to be heard before action is taken. United Student Aid
Fund v Espinosa, 130 S.Ct. 1367, 1376-1377, 2010. Al-16.
On January 7, 2019 Judge Martinotti did in fact deny the relief from his
void order by relying on the void order of the 3rd Cir. claiming that the defendants
were immune and there was no other issue to be resolved by the court. This
October motion, by Mr. Reardon, did challenge Judge Martinotti’s earlier order on
the grounds of it being void due to denial of Due process for which the 1st, through
the 11th and D.C. circuits have all agreed that if the order is void for want of due
process it must be set aside and there is no discretion for not so doing and their
failure is a non-discretionary, ministerial, mandatory and non-judicial act, is
unenforceable in any other court, and does not settle the rights of the injured
party. Antoine v Byers & Anderson Inc., 508 U.S. 429, 435, 1993, Judges don’t
have absolute immunity for mandatory, ministerial or administrative acts!
Sabariego v Maverick, 124 US 261, 293, 31 L Ed 430, 8 S.Ct. 461, 1886; In re
Charter Communications, Inc., 393 F. 3d 771, 784, 8th Cir. 2005. See Raymark
Industries, Inc. v. Lai, 973 F. 2d 1125, 1132, 3rd Cir. 1992, setting aside a void
order is merely a formal act.
Judge Martinotti did enter an original void order in 2018, and refused to set
it aside in 2019 and the 3rd Cir. Also failed to set aside the void order of 2018 and

15
has treated this pro se plaintiff differently than other pfo se or counseled
plaintiffs and has shifted the burden of proof as to Rule 12(b)(2)-(5) defenses to
the plaintiff, Mr. Reardon, and did not require the defendants to carry their
burden of proof the law requires of them due to these judges acting, and
supporting the act of acting, as defense counsel for the respondents/defendants in
all 3 cases. These cases have been dismissed and denied the right to be heard by
these Judges based upon technicalities. Schiavone v. Fortune, 477 US 21, 27, 1986
and Foman v Davis, 371 U.S. 178, 182, 1962. Cases should not be dismissed on
technicalities.
In February 2019 Mr. Reardon did file a new appeal so challenging the
validity of the earlier court orders on numerous grounds. On March 5, 2019, D.U.
S. ATT. Daniel Meyler did ask the 3rd Cir. to summarily dismiss the appeal on the
grounds that the court had found the Respondents were entitled to Absolute
Immunity. This is a violation of R.P.C. 3.3 and is a fraud. The void order cannot
be sanctioned based upon a claim of Immunity.
On March 11, 2019 Mr. Reardon filed his appeal brief and Appendix to the
3rd Cir.
On March 14, 2019 the 3rd Cir. In fact submitted the appeal to the summary
motion panel. Al-2,27-29,48-51.
The standard in the 3rd Cir. Is that review of Rule 60(b)(4) matters are
plenary, Alston v. KEAN UNIVERSITY, 2015 and the court did deny the
Reardons’ of such a review by summarily holding the appeal would be dismissed

16
summarily despite Mr. Reardon asking for plenary review on 3/7/19 in reply to the
respondents request for a summary decision.
The nature of the official is a judicial issue but the nature of the function is
a factual issue and the Reardons’ were denied a plenary hearing to ascertain the
validity of the factual claim of the Defendants in case 3-18'cv01296 as to (a)
whether the Function claimed is supported by appropriate facts! (b) whether Rule
55(a) or (b) are ministerial, mandatory and non-discretionary and what facts
support such a claim, and (c) how can a party be denied of such a hearing to
establish a valid claim by a party to a lawsuit if Due Process is denied?
Legal Arguments
1. Void orders and their consequences.
The courts said in Sea-Land Serv., Inc. v. Ceramica Europa II, Inc., 160 F.3d
849, 852 (1st Cir.1998); ILGWU Nat. Retirement Fund v. Meredith Grey, Inc., 986
F. Supp. 816, 819, Dist. Court, SD New York 1997! States v. Martin, 378 F.3d 353
358, 4th Cir. 2004! Carter v. Fenner, 136 F.3d 1000, 1005 (5th Cir.1998); Antoine
v. Atlas Turner, Inc., 66 F.3d 105,108 (6th Cir.1995) (quoting United States v.
Indoor Cultivation Equip, from High Tech Indoor Garden Supply, 55 F.3d 1311,
1317 (7th Cir.1995)); Johnson v. Arden, 614 F. 3d 785, 799, 8th Cir. 2010; Export
Group v. Reef Indus., Inc., 54 F.3d 1466, 1469 (9th Cir.1995); Wilmer v. Board of
County Comm'rs. of Leavenworth County, 69 F.3d 406, 409; (l0thCir. 1995);
Oldfield v. Pueblo De Bahia Lora, SA, 558 F. 3d 1210 , 1217, 1218, 11th Cir. 2009

17
and Bell Helicopter Textron v. Islamic Republic, 734 F. 3d 1175, 1179, D.C. Cir.
2013.
.....Under Rule 60(b)(4) there is no discretion to not set aside its prior order if
it is void due to lack of personal or subject matter jurisdiction or for failure
to give notice or right to be heard as per Due Process of Law.
Windsor v. McVeigh (1876) 93 US 274, 282, 23 L.Ed 914; McDonald v.Mabee
(1917) 243 US 90, 93, 37 Set 343, 61 L.Ed. 608, Chicot County Drainage Dist. v.
Baxter State Bank, 103 F. 2d 847, 848, 8th Cir. 1939; Berl v. Crutcher, 60 F. 2d
440, 445 5th Cir. 1932 and Brown v. RJ Reynolds Tobacco Co., 576 F. Supp. 2d
1328, Section III, Dist. Court, MD Florida 2008; Standard Oil Co. of Ind. v.
Missouri, 224 US 270, 282, 1912; Postal Telegraph Cable Co. v. Newport, 247 US
464, 476, 1918; International Life Ins. Co. v. Sherman, 262 US 346,, 351, 1923;
Roberts v. Anderson, 66 F. 2d 874,876, 10th Cir. 1933; In re Noell, 93 F.2d 5, 6,
8th Cir. 1937; In re Central R. Co. of New Jersey, 136 F. 2d 633, 639, 3rd Cir. 1943;
United States v. Sacher, 182 F. 2d 416, 420, 2nd Cir., 1950; SwindelLDressler
Corporation v. Dumbauld, 308 F. 2d 267, 273, 3 RD Cir., 1962; Meyer v. Curran,
397 F. Supp. 512, 517, Dist. Court, ED Pennsylvania 1975; Morrissey v. Brewer,
443 F. 2d 942, 951, 8th Cir. 1971; United States v. Bifield, 702 F. 2d 342, 348, 2nd
Cir. 1983; Reshard v. Britt, 839 F. 2d 1499,Ft. Nt. 7, 11th Cir., 1988 and
Richards v. Jefferson County, 517 US 793; Ft. Nt.4, 1996
.....An order that exceeds the jurisdiction of the court, is void, or voidable,
and can be attacked in any proceeding in any court where the validity of the
judgment comes into issue. (See Rose v. Himely (1808) 4 Cranch 241, 2 L ed
608; Pennoyer v. Neff (1877) 95 US 714, 24 L Ed 565; Thompson v.
Whitman (1873) 18 Wall 457, 21 1 ED 897.

18
Sabariego v Maverick, 124 US 261, 293, 31 L Ed 430, 8 S.Ct. 461, 1886:
A judgment of a court without hearing the party or giving him an
opportunity to be heard is not a judicial determination of his rights and
is not entitled to respect in any other tribunal, [void orders, state or federal.]
....Lubben v. Selective Service System Local Bd. No. 27, 453 F.2d 645, 14
A.L.R. Fed. 298 (C.A.l Mass. 1972) and Hobbs v. U.S. Office of Personnel
Management, 485 F.Supp. 456 (M.D. Fla. 1980).
Elliot v Piersol, 1 Pet. 328, 340, 26 U.S. 328, 340, 1828:
the U.S. Supreme Court stated that if a court is "without authority, its
judgments and orders are regarded as nullities. They are not voidable, but
simply void! and form no bar to a recovery sought, even prior to a reversal
in opposition to them. They constitute no justification! and all persons
concerned in executing such judgments or sentences, are considered, in law,
as trespassers." [enforcement of void orders is such.]
World-Wide Volkwagen Corp. v. Woodson, 444 U.S. 286, 291 (1980):
“A judgment rendered in violation of due process is void in the rendering
State and is not entitled to full faith and credit elsewhere. Pennoyer v. Neff,
95 U.S. 714, 732-733, (1878).” [void orders, state or federal.]
United Student Aid Fund v Espinosa, 130 S.Ct. 1367, 1376, 1377, 2010:
Rule 60(b), however, provides an "exception to finality," Gonzalez v. Crosby,
545 U.S. 524, 529, 125 S.Ct. 2641, 162 L.Ed.2d 480 (2005), that "allows a party to
seek relief from a final judgment, and request reopening of his case, under a
limited set of circumstances," id., at 528, 125 S.Ct. 2641. Specifically, Rule 60(b)
(4)—the provision under which United brought this motion—authorizes the
court to relieve a party from a final judgment if "the judgment is void."[9] 1377...
A void judgment is a legal nullity. See Black's Law Dictionary 1822 (3d ed.
1933); see also id., at 1709 (9th ed.2009). Although the term "void" describes
a result, rather than the conditions that render a judgment unenforceable,
it suffices to say that a void judgment is one so affected by a fundamental
infirmity that the infirmity may be raised even after the judgment becomes
final. See Restatement (Second) of Judgments 22 (1980); see generally id., §
12. The list of such infirmities is exceedingly short; otherwise, Rule 60(b)
(4)'s exception to finality would swallow the rule. "A judgment is not void,"

19
for example, "simply because it is or may have been erroneous." Hoult v.
Hoult, 57 F.3d 1, 6 (C.A.l 1995); 12 J. Moore et al., Moore's Federal Practice
§ 60.44 [l][a], pp. 60-150 to 60-151 (3d ed.2007) (hereinafter Moore's).
Similarly, a motion under Rule 60(b)(4) is not a substitute for a timely
appeal. Kocher v. Dow Chemical Co., 132 F.3d 1225, 1229 C.A.8 1997); see
Moore's § 60.44[l][a], at 60-150. Instead, Rule 60(b) (4) applies only in the
rare instance where a judgment is premised either on a certain type of
jurisdictional error or on a violation of due process that deprives a party of
notice or the opportunity to be heard. See United States v. Boch
Oldsmobile, Inc., 909 F.2d 657, 661 (C.A.l 1990); Moore's § 60.44[l] [a]; 11
Charles A. Wright, Arthur R. Miller, & Mary Kay Kane, Federal Practice &
Procedure § 2862, p. 331 (2d ed.1995 and Supp.2009); cf. Chicot County
Drainage Dist. v. Baxter State Bank, 308 U.S. 371, 376, 60 S.Ct. 317, 84
L.Ed. 329 (1940); Stoll v. Gottlieb, 305 U.S. 165, 171-172, 59 S.Ct. 134, 83
L.Ed. 104 (1938).
The Judges below refused and failed to rule on the Rule 60(b)(4) claims by
Mr. Reardon and their orders are in violation of the law on Due Process and void
orders. Al-47.
Mr. Reardon clearly informed the courts of the orders being void and cannot
be given any legal effect and must be set aside and they have all refused to rule on
this issue of their void orders or to set aside their void orders. Al-47.
2. These are Administrative, Ministerial, Non- Discretionary or Mandatory
Functions.
The law holds that mandatory acts are ministerial and the courts have held
that by the failure to carry out a ministerial act the official is liable. Judges
Martinotti, Restrepo, Nygaard and Bibas all focused on the issue of immunity by
claiming that if absolute immunity exists that there is no foul or harm caused by
the denial of Due Process to notice and right to be heard before one’s rights are
decided in violation of Due Process. If a pro se, or other plaintiff, is denied the

20
right to contest the claim of absolute immunity, how can a process be fair if the
court is going to sua sponte make such a pre-determination or pre-judgment of
such? In this case, not only did these Judges miss the mark on void orders, they
also missed the mark on judicial acts allegedly carried out by the Clerks of the
Court and Judge Hillman.
The court said in Hoxworth v Blinder Robinson and CO., 980 F. 2d 912
917, 3rd Cir. 1992:
Defendants first argue that Rule 55 cannot be used to impose a default
against a defendant who has filed an answer and actively litigated during
pretrial discovery. To resolve this issue, we turn first to the language of the
Rule itself, which provides that ”[w]hen a party against whom a judgment
for affirmative relief is sought has failed to plead or otherwise defend as
provided by these rules and that fact is made to appear by affidavit or
otherwise, the clerk shall enter the party's default." Fed.R.Civ.P.
55(a) (emphasis added).[ll] By its very language, the "or otherwise defend"
clause is broader than the mere failure to plead.
Cottrell v Norman, 2015, Judge Hillman presiding:
Default judgment is governed by Federal Rule of Civil Procedure 55, which
states, in relevant part, as follows:
When a party against whom a judgment for affirmative relief is sought has
failed to plead or otherwise defend, and that failure is shown by affidavit or
otherwise, the clerk must enter the party's default.
Fed. R. Civ. P. 55(a). After default is entered pursuant to Rule 55(a) the \
plaintiff may seek the court's entry of default judgment under either Rule
55(b)(1) or Rule 55(b)(2). Nationwide Mut. Ins. Co. v. Starlight Ballroom
Dance Club, Inc., 175 F. App'x 519, 521, n.l (3d Cir. 2006) (citing 10A
Wright, Miller & Kane,Fed. Prac. & Proc. § 2682 at 13 (3d ed. 1998)). After
default judgment is entered, "the factual allegations of the complaint,
except those relating to the amount of damages, will be taken as true."
Comdyne I, Inc. v. Corbin, 908 F.2d 1142, 1149 (3d Cir. 1990) (citing 10
Wright, Miller & Kane, Fed. Prac. & Proc. § 2688 at 444 (2d ed. 1983)).
In re Paoli RR Yard PCB Litigation, 221 F. 3d 449, 453, 3rd Cir. 2000: 461:

21
The clerk of court's role in taxing costs awards, while quasi-judicial, is
essentially ministerial.
Fuller v. MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, 888 F. Supp.
2d 1257 - Dist. Court:, M.D. Florida. Jacksonville Division,2012‘(a clerk "candidly conceded that the function is operational and
ministerial"); Ferlita v. State, 380 So.2d 1118, 1119 (Fla. 2d DCA 1980)
(stating that "[a] clerk acts in a purely ministerial capacity, and has no
discretion to pass upon the sufficiency of documents presented for filing");
Pan Am. World Airways v. Gregory, 96 So.2d 669, 671 (Fla. 3d DCA
1957) (describing the clerk's duties, when acting as an officer of the court,
as "ministerial and as such he does not exercise any discretion").
The clerk does not use any discretion to the propriety of service, he is only
to look at the affidavit of service and see if it appears to show the defendants have
been served and I provided an affidavit of service showing service had been
executed. A30-36.
City of New York v. Mickalis Pawn Shop, LLC, 645 F. 3d 114, 128, 2nd Cir.,
2011:
Fed.R.Civ.P. 55(a). Although Rule 55(a) contemplates that entry of default
is a ministerial step to be performed by the clerk of court, see Pinaud v.
Cnty. of Suffolk, 52 F.3d 1139, 1152 n. 11 (2d Cir. 1995) (describing "the
entry of a default" as "largely a formal matter" (internal quotation marks
omitted)), a district judge also possesses the inherent power to enter a
default, see Beller & Keller v. Tyler, 120 F.3d 21, 22 n. 1 (2d Cir. 1997).
See Also Raymark Industries, Inc. v. Lai, 973 F. 2d 1125, 1132, 3rd Cir. 1992 as to
default being a formal matter.
BAC LOCAL 2, ALBANY v. Moulton Masonry & Const., 779 F. 3d 182 Court of
Appeals, 2nd Cir. 2015:
Under Rule 55(a) of the Federal Rules of Civil Procedure, "[w]hen a party
against whom a judgment for affirmative relief is sought has failed to plead
or other wise defend ..., THE CLERK MUST ENTER the party's default."

22
The entry of default is therefore not discretionary.
This court has held that the test of Judicial conduct is as to the nature of
the Function and not the nature of the official, and by Judge Martinotti saying
that the defendant/respondents are immune as the acts complained of are judicial
is to put the cart before the horse and his findings are of the nature of the official
and not the nature of the Function which is the bench mark of this court. How can
the denial of an investigation before hand as to any alleged claim that the entry of
Default, which is non-discretionary, ministerial, and mandatory, be a judicial
function when the clear law says it is not?; and how such non-judicial functions
allow immunity of any kind as per the court’s decisions? By the lower court’s
actions as acting as defense counsel and sanctioning of such, and by their claiming
that the Function is judicial not cause the appearance of adverse bias by the
courts that this court has barred as per Caperton v Massey Coal Co., 129 S.Ct.
2252, 2254, 2259, 2263, 2009.
Thus, by dismissing this case peremptorily, sua sponte and without Due
Process the 3rd Cir. has held that it is the nature of the official that is controlling
here and not the nature of the function and that Due Process is not necessary to
such claims.
The courts have also said that administrative functions, such as moving its
docket along speedily or failing to schedule a hearing, such as a hearing for
damages due to default, or by failing to notify the plaintiff that his service is
defective and either dismissing the case and allowing time to re-file and re-serve

23
or to grant an extension to properly serve are administrative function which
absolute immunity is not proper. The court’s failed to do these 3 things and now
the courts have dismissed these cases without the right to be heard on them. As
the courts said in Tanner v. Hardy, 764 F. 2d 1024, 1028 [Ft. Nt. 4], 4th Cir. 1985:
However, the court suggested that "[w]hen a judge acts in a non-judicial
capacity [and merely performs a mandatory, ministerial function such as
scheduling a hearing] he pro tanto loses his absolute immunity and is
subject to liability as any other state official." Id. at 4 n. 7.
I sought leave to amend as per Rule 60(b)(4) and U.S. v Beggerly Supra as
to Judge Hillman’s administrative functions and as per Tanner above and the
lower courts denied me this right. Had I been given notice of the court’s intent to
dismiss I would have sought leave to amend as to these issues. A38-46.
Balistreri v. Pacific Police Dept., 901 F. 2d 696, 699, 9th Cir., 1990:
Pro se cases should not be dismissed for improper service.
Kaohwa Shipping Co., SA, v. China Steel Corp. , 816 F. Supp. 910, 913, Dist.
Court, SD New York, 1993:
Meritorious Defenses are no reason for not setting aside void orders for
violations of Due Process to notice and being heard.
The 3rd Circuit apparently does not go by these cases as noted by the
dismissal of the Reardons’ cases and this court should settle this dispute in the
law to adequately inform all plaintiffs, but most importantly pro se cases, of the
guidelines for such proceedings and to protect and honor our rights.
There is no immunity but Qualified at best.
3. Liability for Mandatory, Administrative, Non-Discretionary or

24
Ministerial Functions.
Antoine v Byers & Anderson Inc., 508 U.S. 429, 435, 1993 :
Indeed, we have recently held that judges are not entitled to absolute
immunity when acting in their administrative capacity. Forrester v.
White, 484 U. S. 219, 229 (1988). 436 (absolute immunity from state law
tort actions available to executive officials only when their conduct
is discretionary).
In re Charter Communications, Inc., 393 F. 3d 771, 784, 8th Circuit 2005:
Ministerial acts have long been recognized as nonjudicial by the Supreme
Court. See, e.g., Custiss v. Georgetown & Alexandria Turnpike Co., 6
Cranch 233, 10 U.S. 233, 236, 3 L.Ed. 209 (1810).
Rule 55 is clear that acts that are mandatory are ministerial that such acts
do hot afford or accord absolute immunity and the Judges have focused on this
claim of immunity and Nature of the official and not the nature of the Function to
over-ride the very intent of Due Process.
In fact, the Judges in these proceedings also failed to comply with Bogan v.
Scott-Harris, 523 US 44, 51-52, 1998:
Even the authorities cited by respondent are consistent with the view that
local legislators were absolutely immune for their legislative, as distinct
from ministerial, duties. In the few cases in which liability did attach, the
courts emphasized that the defendant officials lacked discretion, and the
duties were thus ministerial. See, e. g., Morris v. The People, 3 Denio 381,
395 (N.Y. 1846) (noting that the duty was "of a ministerial character only");
Caswell v. Allen, 7 Johns. 63, 68 (N.Y. 1810) (holding supervisors liable
because the act was "mandatory" and "[n]o discretion appear[ed] to [have
been] given to the supervisors").....
Respondent's heavy reliance on our decision in Amy v. Supervisors, 11 Wall.
136 (1871), is misguided for this very reason. In that case, we held that
local legislators could be held liable for violating a court order to levy a tax
sufficient to pay a judgment, but only because the court order had created a

25
ministerial duty. Id., at 138 ("The rule is well settled, that where the law
requires **52** absolutely a ministerial act to be done by a public officer,
and he neglects or refuses to do such act, he may be compelled to respond in
damages to the extent of the injury arising from his conduct"). The treatises
cited by respondent confirm that this distinction between legislative and
ministerial duties was dispositive of the right to absolute immunity. See, e.
g., Cooley 377 (stating that local legislators may be held liable only for their
"ministerial" duties); Mechem § 647 (same).
Page v. Schweiker, 786 F. 2d 150 , 153, 3rd Cir,. 1986:
It is well-established that, absent "compelling circumstances," an appellate
court will not reverse on grounds raised for the first time on appeal:
This prudential policy seeks to insure that litigants have every opportunity
to present their evidence in the forum designed to resolve factual disputes.
By requiring parties to present all their legal issues to the district court as
well, we preserve the hierarchial nature of the federal courts and encourage
ultimate settlement before appeal. It also prevents surprise on appeal and
gives the appellate court the benefit of the legal analysis of the trial court.
Despite Judges Martnotti, Restrepo, Bibas and Nygaard knowing that all
the facts and the law were not aired in the U.S. District Court back in 2018, the
Appellate court thus failed to follow it’s own practice and did deny relief from the
Void orders of Judge Martinotti and the 3rd Circuits decisions on August 28, 2018.
If a case is dismissed sua sponte without notice or right to be heard before hand,
how is a party given the right to be heard on all the facts and law before an
appeal may be properly taken? The 3rd Cir. Knows that an appeal in the first
instance is and was not permitted to be heard by the Appellate court in the first
instance or that compelling circumstances existed as to denial of Due Process and
they have proven their own bias and/or incompetence or have intentionally,

26
wilfully, or deliberately denied these pro se appellants of their rights. See
Blackstone’s Commentaries, Book 1, Chapter 9, Page 342.
The position of the 3rd Cir. Holding to the claim that matters of first
instance to the appellate court is troubling to the petitioners and should be to the
court since Judge Martinotti himself said in his January 7, 2019 order that I
should have submitted my complaints to the 3rd Cir. Back in 2018 and totally
contrary for the 3rd Cir.’s decision, Al-31 and 40-47, which I did and the third
Circuit refused to address said issue.
4. The claim of absolute immunity does not trump Due Process of law to
Notice and be heard.
KAO HWA SHIPPING CO., SA, v. China Steel Corp., 816 F. Supp. 910,
913, Dist. Court, SD New York, 1993:
Rule 60(b)(4) of the Federal Rules of Civil Procedure authorizes relief from
void judgments. A judgment is void and subject to vacatur if the court lacks
either subject matter jurisdiction or personal jurisdiction, regardless of
whether a meritorious defense exists. Triad Energy Corp. v. McNeil, 110
F.R.D. 382, 385 (S.D.N.Y.1986); Leab v. Streit, 584 F.Supp. 748, 760-61
(S.D.N.Y. 1984); 11 Charles A. Wright & Arthur R. Miller, Federal Practice
and Procedure § 2862 (1973) ("Wright & Miller"). Unlike motions made
pursuant to other subsections of 60(b), the Court has no discretion
regarding motions to vacate void judgments under Rule 60(b)(4). The court
must vacate a void judgment. Triad Energy Corp. v. McNeil, 110 F.R.D. at
384 (citations omitted); Leab v. Streit, 584 F.Supp. at 760 (citations
omitted); Wright & Miller § 2862. In addition, as a void judgment cannot
acquire validity by way of laches, a judgment may be attacked as void at
any time. Triad Energy Corp. v. McNeil, 110 F.R.D. at 385; Wright & Miller
2862. See also Kopec v. GMG CONSTRUCTION CORP.,- Standard for
Review, Dist. Court, ED New York 2011. See 11 Charles Alan Wright &
Arthur R. Miller, Federal Practice and Procedure §2862

27
A PRACTITIONER’S GUIDE TO POST- JUDGMENT MOTIONS Deborah
Alley Smith CHRISTIAN & SMALL LLP Birmingham, Alabama
Rule 60(b)(4) provides a party relief from a void judgment. A void judgment
is one entered by the court without authority or jurisdiction and results
from the court's lack of personal or subject-matter jurisdiction or the
exercise of jurisdiction in violation of constitutional requirements. See 11 C.
Wright, A. Miller & M. Kane, Federal Practice &Procedure § 2862 (1995). A
court has no discretion under this subsection; if a judgment is void, it is to
be set aside, and if it is valid, it stands. Fisher v. Amaraneni, 565 So.2d 84,
87 (Ala. 1990); Wonder v. Southbound Records, Inc., 364 So. 2d 1173 (Ala.
1978).
The Judges below focused on this claim of Absolute Immunity for the
Ministerial, Mandatory, Administrative, Non-Discretionary and Non-Judicial
Functions to override the very right of Due Process to notice an being heard and
that it trumps Due Process of law. The Judges below failed to comply with the
mandates of Due Process and have turned a non-judicial act into a Judicial act.
Further, Judge Martinotti’s pre-disposition was such that he should have
recused himself for this bias and he failed to so do. If this court remands this case
it should be to different judges other than the 7 below.
This court should also pass judgment on the question of whether a judge is
immune for the intentional denial of rights as per Blackstone and Pierson v Ray,
386 U.S. 547, 567, 1967.
Relief Sought
This pro se petitioner prays that this court will grant this petition of
Certiorari and overturn the void orders of the courts below and honor and protect
these pro se petitioners’ Due Process rights and settle if there is any defense that

28
trumps Due Process or whether Ministerial, Mandatory, Non-Discretionary, NonJudicial or Administrative Functions under Rule 55 grants immunity in such
cases as the law seems clear to this pro se petitioner, as to all pro se parties, and
the lower court judges apparently need clarification as to these claims.
The petitioner also pleads with this court to order the defendants to pay
double all costs so put out by Mr. Reardon in these 3 mentioned cases till this
petition. This court should settle this clearly contradictory findings of the Courts
below so all plaintiffs, especially pro se, may know the proper law for all such
Lawsuits as well as to establish wether Judges perform a ministerial, non-judicial
non-discretionary and mandatory acts under Rule 55(a) and (b)(2) or whether a
clerk performs a judicial function under Rule 55(a) or (b)(l) that accords him
absolute immunity or wether the rules are mandatory or ministerial functions
which do not grant immunity for such conduct, especially when the clerks have
said that service had been executed. A3036.
This court needs to settle the dispute of whether a clerks Non-Discretionary
, Mandatory, and Non-Judicial, and Ministerial functions under Rule 55(a) and (b)
(l) are such as found by the various circuit courts and thus whether the Judge
performs such an act and can be held liable, or whether the Court in fact performs
a Judicial act under Rule 55(a) and (b)(2) and therefore the clerk performs a
Judicial Function for which he is immune from liability as found by Judges
Simandle and Martinotti and Judges Bibas, Restrepo, Nygaard,. Ambro, Krause
and Porter of the 3rd Cir.

29
The court is also called upon to settle the disputes in the law between the
various circuit courts and those below, and that the court order the lower courts to
provide the Reardons with a plenary hearing as to the absolute immunity claims
of the respondents and that such is a mandate for all plaintiffs.
The petitioner asks this .court to establish if the nature of the function is a
factual dispute that requires oral testimony and proof to make such a claim,
especially when the courts have denied the injured party any right to be heard on
or whether a ministerial, non-discretionary or mandatory act is of a judicial
nature according a judge Absolute Immunity and is such for the clerk as well or
whether the clerks perform a non-discretionary, ministerial or mandatory function
and thus the Judge does as well.
The Petitioners ask this court to find that the standing order that allows
the court to ignore and not comply with the absolute right to Due Process of law,
that such an order is unconstitutional and this court needs to set aside such an
order to protect the rights of all litigants who come before them. See petition
pages 12-19 above and A42 which so proves that no such order can stand and be
enforced by any Judge. It would be a mandate that denies litigants’ of their
absolute rights to notice and being heard before hand and is unconstitutional and
I ask the court to settle this alleged order as such.
This court should settle our Rule 60(b)(4) matters that are mandates, and
since the lower courts have refused to comply with this mandate that this court
issue an order confirming the lower court Judges liable for lack of discretion.

30
Antoine v Byers Supra.
This petitioner asks that this court rule that Judge Hillman’s failure to
carry out his ministerial or administrative function that caused these cases to be
dismissed is to be set aside.
The petitioners merely seek the right to be given their rights to default and
default judgment in cases 1H5-cv00244 and -05520 and a trial date as to
damages or be given the right to have 3 weeks to re-serve the parties in those
cases in return for the dismissal of this lawsuit and petition.
The petitioner’s ask this court to throw out Judge Gerry’s order if it is in
fact as Judge Martinotti claims due to it violating a plaintiffs Due Process right
to notice and being heard before adverse actions are taken in their lawsuit.
The petitioner’s pray this court will rule that Judge Hillman’s Failures to
administratively, timely and ministerially handle his docket the court direct the
lower courts to admit that cases D15-cv-00244 and -05520 should not have been
dismissed for improper or untimely service and that the court in fact be ordered to
enter default and default judgment in said cases or immediately hold a hearing as
to damages or the petitioner be granted 3 weeks to re-serve the defendants in said
cases.
The petitioners also pray this court will settle whether judges can be held
liable for intentional denials of Rights, as here, for which this court has never
addressed before.
Conclusions

31
It is clear that the functions complained of are not judicial according
ABSOLUTE Immunity, that the Respondents are not entitled to absolute
immunity, that qualified immunity must wait till after discovery, and that the
Lower court’s orders are void and cannot be given any credence or validity and
this court should grant this petition and protect and honor these pro se
petitioners’ rights to Due Process to notice and being heard on a suit that involves
Mandatory, Ministerial, Administrative, Non-Judicial, and Non-Discretionary
Functions that they can be held liable for and reverse the findings and decisions
of the Courts below.
The actions of the lower court has been to hold these pro se complainants
strictly to the rules and laws and to assert defenses for the defendant as their
counsel and to relax the laws and rules for defendants who are required to know
and comply with the laws and Rules. The lower court’s have clearly committed
legal error, abuse of discretion, committed discrimination and has failed to undo
the wrongs against the petitioners contrary to Lawrence v State Tax Commission,
286 U.S. 276, 282, 1932.
That Judge Hillman did intentionally deny the Reardon’s of the following
rights^ (l) Default and Default Judgment; (2) a hearing date as to damages!
(3) to fair proceedings contrary to Due Process! (4) to timely handle the 2 cases of
-00244 and -05520 which caused them to be unjustly dismissed and an order so
declaring such! (5) setting aside the dismissal order in said cases since Judge
Hillman failed to inform these pro se petitioner’s of their defective service and (6)

32
to the equal protections of the law or granting an order that gives the petitioner’s
right to move before the U.S. District Court to re-open the 2 mentioned cases.
The petitioner’s be granted the relief immediately as stated above since
the defendants Sanchez, Ramsey and Merrigan failed to carry out their
mandatory duty to enter default and default judgment and thus to fair
proceedings and the equal protections of the law.
It is clear from the law and the accompanying documents that (l) I was not
give the right to litigate the issues of immunity based upon the function and
factual development thereof; (2) The orders are void for denial of Due Process; (3)
That the Appellate court cannot validate a void order as it did; (4) That I am not
under any restraint to appeal any void order immediately when denied the right
to litigate my claims; (5) that R 55 issues are in fact mandatory for the clerks and
judge; (6) that all judges did what the well settled law bars them from doing
which is to validate the void orders; (7) The 7 judges are liable; (8) That Judges
Restrepo, Nygaard, Bibas, Porter, Ambro and Krause did intentionally deny the
Reardon’s of their right to relief from the void orders of Judge Martinotti; (9)
Judge Martinotti did deny me of Due Process of law and the equal protections of
the law by dismissing this case without giving us our Due Process rights to notice
and being heard, to the equal protections of the law and for making claims he has
the right to prejudge a case in violation of Due Process and by claiming that he
has the obligation of complying with the Void orders or the 3rd Circuit Court of
Appeals decisions when they were (a) stated to be non-binding and (b) were void

33
for giving validity to Judge Martibnotti’s void order with no discretion to so do
and he did so do intentionally as did the Appellate Court Judges; (10) Judge
Martinotti denied us of our rights to a fair and impartial hearing and tribunal;
(ll) That Judge Martinotti did intentionally issue and order that was void and by
giving said order credibility,, credence and validity when he has no discretion to
so do! (12) That Judge Martinotti did give credence, credibility and validity of the
3rd Cir. Decision of August 2018 and his April 2018 order with no discretion to so
do! (13) That Judges Restrepo, Bibas and Nygaard did give credence, credibility
and validity to Judge Martinotti’s April 2018 order with no discretion to so do;
(14) That Judges Ambro, Krause and Porter did give credence, credibility and
validity to Judge Martinotti’s April 2108 and January 2019 orders and the 3rd
Circuits order of August 2018 with no discretion to so do; (15) all judges denied
the Reardons’ of fair and impartial hearings and tribunals and the equal
protections of the law and did deny such rights intentionally and the Reardons’
are entitled to the relief being sought and (16) All 8 Judges were made aware of
their past decisions and they intentionally ignored them to the detriment of the
plaintiffs.

Dated: 9/29/19
John E. Reardon, Petitioner, Pro Se

